<html>
<title> - KAZAKHSTAN'S LEADERSHIP OF THE OSCE</title>
<body><pre>[Joint House and Senate Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







                  KAZAKHSTAN'S LEADERSHIP OF THE OSCE

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 2, 2010

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 112-2-2]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                   Available via http://www.csce.gov
                   
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-183 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                   
                   
                   
                   
                   
                   
                   
                   
                   
                   


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

ALCEE L. HASTINGS, Florida,          BENJAMIN L. CARDIN, Maryland, 
Co-Chairman                          Chairman
EDWARD J. MARKEY, Massachusetts      CHRISTOPHER J. DODD, Connecticut   
LOUISE McINTOSH SLAUGHTER,           SHELDON WHITEHOUSE, Rhode Island
New York                             TOM UDALL, New Mexico       
MIKE McINTYRE, North Carolina        JEANNE SHAHEEN, New Hampshire
G.K. BUTTERFIELD, North Carolina     SAM BROWNBACK, Kansas
CHRISTOPHER H. SMITH, New Jersey     SAXBY CHAMBLISS, Georgia
ROBERT B. ADERHOLT, Alabama          RICHARD BURR, North Carolina
JOSEPH R. PITTS, Pennsylvania        ROGER F. WICKER, Mississippi   
DARRELL E. ISSA, California              
                        

                     EXECUTIVE BRANCH COMMISSIONERS

                 Michael H. Posner, Department of State
               Alexander Vershbow, Department of Defense
                     Vacant, Department of Commerce

                                  (ii)













                  KAZAKHSTAN'S LEADERSHIP OF THE OSCE

                              ----------                              

                            February 2, 2010
                             COMMISSIONERS

                                                                   Page
Hon. Alcee L. Hastings, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Darrell E. Issa, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     6

                                MEMBERS

Hon. Eni F.H. Faleomavaega, a Delegate in Congress from the 
  American Samoa.................................................     3

                               WITNESSES

H.E. Kanat Saudabayev, Foreign Minister, Republic of Kazakhstan..     7

                                APPENDIX

Prepared statement of Hon. Benjamin L. Cardin, Chariman, 
  Commission on Security and Cooperation in Europe...............    19
Prepared statement of Hon. Darrell E. Issa.......................    21
Prepared statement of H.E. Kanat Saudabayev......................    22

                                 (iii)

 
                  KAZAKHSTAN'S LEADERSHIP OF THE OSCE

                              ----------                              


                            February 2, 2010

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10:02 a.m., in room 1100 Longworth 
House Office Building, Washington, DC, Hon. Alcee L. Hastings, 
Co-Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Alcee L. Hastings, Co-Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Darrell E. Issa, Commissioner, Commission on Security and 
Cooperation in Europe.
    Member present: Hon. Eni F.H. Faleomavaega, a Delegate in 
Congress from the American Samoa.
    Witness present: H.E. Kanat Saudabayev, Foreign Minister, 
Republic of Kazakhstan.

HON. ALCEE L. HASTINGS, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. Our hearing will now come to order of the 
Commission on Security and Cooperation in Europe and this 
hearing is entitled, ``The Kazakhstan Leadership of the OSCE.'' 
For those that are in our audience on channel 2 on these 
headsets is in English and channel 10 is in Russian. I'll wait 
for the minister to get mic'ed up; is he OK for the moment? All 
right. Mr. Minister, I'd like first to------
    Mr. Redfield. No, he's not ready yet. He's not ready.
    [Off-side conversation.]
    Mr. Hastings. OK, you have the mic now?
    First, it's an honor and a privilege for me to welcome my 
good friend, Foreign Minister Saudabayev back to Washington in 
his new role as chairman in office of the OSCE.
    Mr. Chairman, before I go further with my statements, I'd 
like to acknowledge the fact that Senator Cardin, the Co-Chair 
of the Commission is in attendance at a funeral this morning of 
former Maryland Senator, Charles Mathias. And it's for that 
reason that the Senator is unable to be with us here this 
morning.
    Foreign Minister Saudabayev and I have known each other for 
many years, going back to when the minister was Ambassador here 
in Washington. As most of you know, I long supported 
Kazakhstan's chair to the OSCE. I urged the U.S. Government to 
back the proposal and was pleased when the United States joined 
consensus at the 2007 Madrid ministerial based on certain 
assurances.
    Some thought that there were problems with Kazakhstan's 
record on democratization and human rights, but I believed then 
as I do today that inclusiveness was and is the best way to 
proceed. I was in Madrid and heard, Mr. Minister, your 
predecessor make specific pledges of reforms on behalf of your 
government. I believe that promises are meant to be kept and I 
have every expectation, Mr. Minister, that your government will 
continue working to translate its Madrid promises into actions 
consistent with OSCE commitments.
    I look forward to hearing more about Kazakhstan's plans to 
organize an OSCE summit this year, which I might add, I 
certainly encourage. I hope that a summit would be not only 
substantive but also conducted in line with past practice, 
including being fully open to NGOs and civil society.
    In that vein, the now-celebrated case of Yevgeny Zhovtis 
has received a great deal of attention here in this country and 
elsewhere. He's the best-known human rights activist in 
Kazakhstan and has testified before this Commission on several 
occasions, two of which I was in attendance. I understand that 
he has submitted an appeal to the Kazakhstan supreme court and 
I am sure that this matter will move forward accordingly.
    As the former President of the OSCE Parliamentary 
Assembly--I'd like to take this moment to acknowledge the 
presence of the Secretary-General of the Parliamentary Assembly 
of OSCE, Spencer Oliver, who is in attendance with us here this 
morning--and I'd also ask you, Mr. Minister, to look at ways to 
strengthen the relationship between the Parliamentary Assembly 
and the governmental side of the OSCE. I strongly believe that 
the Parliamentary Assembly has an abundant of expertise to 
offer on a wide range of issues, including, of course, election 
observation.
    As you may know, over the past several years, some have 
suggested--and I have been among them--that the OSCE work more 
closely with the CIS in the field of election observation. I 
believe it to be an interesting idea and one that should be 
explored in cooperation with other election observation 
partners for future election observation missions.
    I also ask that you continue to make a priority the whole 
range of issues covered under the OSCE tolerance rubric: 
racism, anti-Semitism, racial profiling and blatant 
discrimination continue across the OSCE region as evidenced by 
recent violent attacks on African populations in Italy. An 
increased focus on racism, in addition to efforts focused on 
migrants, must continue to be at the top of the OSCE's agenda 
and I hope this will be a topic at this year's high-level 
tolerance meeting, which I'm hopeful that I, as well as other 
Members, will be able to attend.
    The desecration of a Jewish cemetery in France on the 65th 
anniversary of the liberation of Auschwitz further demonstrates 
the need to maintain a focus on combating anti-Semitism. The 
increased political focus on Muslim populations in many 
countries, including banning minarets and face-veils, also 
requires attention. Efforts of the ODIHR tolerance unit, the 
Chairman-in-Office personal representatives on tolerance and 
the OSCE high commission on national minorities are critical to 
addressing these issues.
    Mr. Minister, your leadership is going to be very important 
to the OSCE this year. We all support you and hope that 
Kazakhstan's chairmanship will be a tremendous success. We 
appreciate the good working relationship that has developed 
between your embassies--and I'm pleased to note your Ambassador 
here to the United States is with us this morning--and the 
cooperation developed in Vienna with the Helsinki Commission. 
And I look forward to continuing that throughout this year and 
beyond.
    At this time I would like to acknowledge my good friend 
from American Samoa who is in attendance with us this morning, 
Eni Faleomavaega, for any comments he may wish to make.

  HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN CONGRESS FROM THE 
                         AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman, and I do want to 
offer my personal condolences and sympathies of the late 
Senator Charles Mathias, certainly one of the stalwarts and 
leading Senators of our Nation and I can fully understand and 
appreciate why our Co-Chairman Senator Cardin could not join us 
this morning.
    This is a very special occasion for me, Mr. Chairman, to 
the extent that I've decided to wear a cultural tie that was 
given to me by one of my brothers from the Indian Oneida Nation 
which is symbolic of the bear clan. As you can see, it is 
made--I have a claw of a bear, as well as it was from the part 
of the bear where it was carved--hopefully that I might receive 
some extra munna (ph), if you will, because sometimes, Mr. 
Chairman, some of our friends here in Washington, when you say, 
``tribe''--it kind of gives a connotation like the lesser 
civilized people coming from various tribes don't seem to have 
any sense of modernity or to the extent that they don't have 
culture.
    Very interestingly enough for the tremendous problems that 
we're faced with not only in Central Asia that there was a 
number of tribes in Afghanistan that finally gave the demise to 
the former Soviet Union after 10 years of occupation. I think 
it was also the Nation of Israel are still in formal of tribal 
recognitions--whether you're from Judah or Manasseh or from 
Ephraim or whatever. So I think it's good to understand that 
even great nations like Kazakhstan--they still have their 
little tribal organizations; they're very proud of it.
    As I'm very sure that our distinguished guest who's our key 
witness this morning happens to be my very dear friend whom 
I've had the privilege and honor of knowing for all these 
years, formerly as the Ambassador of the Republic of Kazakhstan 
to our country for some 7 years and then before that an 
outstanding diplomatic career in his own right, Dr. Kanat 
Saudabayev, now both as Secretary of State and as appointed 
recently as Foreign Minister by President Nazarbayev. I'm very, 
very privileged and honored that he has joined us this morning, 
hearing from him for the issues that are now before us 
concerning the Helsinki Commission.
    Mr. Chairman, I thank you for the opportunity to testify 
before the Helsinki Commission regarding Kazakhstan's 
leadership of the 56-nation Organization for Security and 
Cooperation in Europe. This is undoubtedly a historical event 
for both the OSCE and Kazakhstan, given that Kazakhstan is the 
first former Soviet Republic to serve in the top leadership 
role of an organization best known for promoting democracy, 
human rights and the rule of law.
    As early as 20 years ago, the idea of any post-Soviet 
states' active participation in the OSCE was inconceivable. And 
for one of those states to assume the chairmanship of the 
organization was unimaginable. Yet Kazakhstan's bid to chair 
the OSCE was unanimously supported by all 56 Member nations in 
recognition of the bold steps that President Nazarbayev has 
taken to bring Kazakhstan out from under the yoke of communism 
or, for that matter, colonialism for some 80 or 90 years before 
they became independent some 18 or 19 years ago.
    As chairman of the House Foreign Affairs Committee on Asia, 
the Pacific and the Global Environment, which also has broad 
jurisdiction on U.S. foreign policy affecting Central Asia, I 
supported Kazakhstan's bid to chair the OSCE. And I have every 
confidence that OSCE Chairman-in-Office Kanat Saudabayev will 
fairly represent the interests of all Member States. Having 
worked with His Excellency Kanat Saudabayev for some 7 years 
during his tenure as Kazakhstan's former Ambassador to the 
United States.
    I can unequivocally state that he spared no efforts in 
strengthening U.S.-Kazakh relations and because of his work in 
Washington remains unsurpassed. I have every reason to believe 
that this skilled and seasoned diplomat will spare no effort 
also in making the OSCE more valid, more useful and more 
effective.
    This is why I also support President Nazarbayev's call for 
the convening of a summit of OSCE leaders in Kazakhstan this 
year. It has been 10 years since the OSCE held a security 
summit and since then the world has changed drastically and 
dramatically as a direct result of 9/11. Now more than ever it 
is critical that we bring together all Member States to discuss 
and come to solutions regarding the security of all nations. 
While I have serious reservations about U.S. involvement in 
Afghanistan--I have a very interesting observation, Mr. 
Chairman, on this issue. We already have 68,000 soldiers in 
Afghanistan. We're going to be sending another 30,000 soldiers, 
numbering almost 100,000 soldiers who are going to be looking 
for Taliban, which numbers about 27,000 and a couple of hundred 
al-Qaida. And by the way, these 27,000 Taliban, I would venture 
to say 99 percent are Pashtuns. Twelve million Pashtuns, I 
believe, live in Afghanistan, but right on the border between 
Pakistan and Afghanistan--27 million Pashtuns live there too.
    Is it any wonder why it's been difficult for us even to 
locate Osama bin Laden after all these years? Because of the 
problems of tribal organizations that I think we have very 
little understanding or appreciation of the cultures of these 
areas. And I might say, very, very serious implications of the 
role that Central Asian countries will play on what's going to 
come out in Afghanistan in other areas of this very critical 
region at this time.
    Kazakhstan aims to use the OSCE to press for a resolution 
to the conflict in Afghanistan. And for this reason, I believe 
the United States would do well to support Kazakhstan in its 
effort to hold a summit. For this reason my colleagues and I 
have spearheaded an initiative which we have called upon the 
Obama administration to support an OSCE summit for purposes of 
bringing together all Member States to discuss and come to 
solutions regarding the security of all nations, particularly 
in this region of the world.
    Mr. Chairman, I submit, I think we really need to look a 
little more deeply at the fact that this is not just going to 
cost us arms and body blood but a tremendous drain even in our 
own national treasury when it comes to this issue of 
Afghanistan. Without Central Asia's support, in my humble 
opinion, Mr. Chairman, we have no hope in Afghanistan. Central 
Asia is key to stabilizing Afghanistan and Kazakhstan is the 
only Central Asian country to have an action plan to assist in 
the reconstruction process.
    As we noted in our letter to President Obama, ``In 2007/
2008, Kazakhstan provided $3 million for social and 
infrastructure projects, humanitarian aid and training for 
Afghan law enforcement and border patrol officers. Last year, 
Kazakhstan committed an additional $5 million to improve the 
water supply for the shipments of grain and other commodities. 
And most recently, Kazakhstan has announced a major education 
initiative for Afghan students, providing them opportunities to 
study abroad.''
    Because Kazakhstan is situated at the crossroads of Europe 
and Asia, it is in a position to build bridges between the East 
and the West and at a time when U.S. support is waning. I 
firmly believe that as a Nation we must support Kazakhstan and 
its chairmanship of the OSCE. No doubt there will always be 
critics' intent on setting Kazakhstan back in its attempt to 
move the OSCE forward, but again, all 56 Member States 
unanimously voted in favor of Kazakhstan's chairmanship and it 
is time for us to come together as a commission and an 
organization to support Kazakhstan and its ambitious agenda.
    About efforts to improve implementation of commitments 
regarding fundamental human rights and freedoms, as David 
Wilshire, head of the delegation of the Parliamentary Assembly 
of the Council of Europe noted, ``Building a democracy is a 
long and hard task.'' And given the time it has taken America 
to elect its first African-American President, Mr. Chairman, I 
submit I tend to agree with Mr. Wilshire's assessment.
    As a Pacific Islander whose people know first-hand the 
horrors of nuclear testing, I also want to make a final comment 
about human rights. While Kazakhstan, like many other nations 
including our own, still has challenges ahead as it seeks to 
provide food, shelter and political rights for its people, we 
must not forget that when it mattered most, President 
Nazarbayev changed the course of history, in my opinion Mr. 
Chairman, and dismantled the world's fourth largest nuclear 
arsenal which was larger than the combined nuclear arsenals of 
Great Britain, France and China.
    President Nazarbayev also made a tough choice to close and 
seal off the world's second largest nuclear test site. While 
the United States, Great Britain, France, China and Russia 
continue to possess thousands and thousands of nuclear weapons, 
while human rights groups continue to point fingers at 
Kazakhstan, I submit Mr. Chairman, only Kazakhstan had the 
moral courage to renounce nuclear weapons all together for the 
sake of all mankind.
    I also wish to point out that according to U.S. polling 
data, more than 63 percent of the people of Kazakhstan have a 
favorable opinion of the United States. And I believe this is a 
direct result of President Nazarbayev's leadership and 
commitment in the service of his people.
    Since 9/11 in regards to the U.S. coalition operations in 
Afghanistan, Kazakhstan allowed overflight and transshipment to 
assist U.S. efforts. U.S.-Kazakh accords were signed in 2002 on 
the emergency use of Kazakhstan's Almaty airport and on other 
military-to-military relations. The Kazakh legislature also 
approved sending military engineers to Iraq in May 2003. And I 
think it was just recently in a week ago that we've also had an 
agreement with Kazakhstan for shipment of allowing our shipment 
of goods going through passes in our efforts in building up our 
military capacity in Afghanistan.
    On many of the other important issues, Mr. Chairman I 
submit, Kazakhstan has also stood with the United States and I 
hope the United States will now stand with Kazakhstan in 
support of an OSCE summit. Again, I commend Kazakhstan for its 
chairmanship of the OSCE. I sincerely thank you, Mr. Chairman, 
for giving me this opportunity to share with you my thoughts 
concerning this very important matter and I look forward to 
hearing from our witnesses this morning. Thank you, Mr. 
Chairman.
    Mr. Hastings. Thank you very much, Mr. Faleomavaega. We've 
also been joined, and I would have the minister to note, we 
will get to his testimony, but I'd be terribly remiss if I did 
not acknowledge and allow any statement that he may wish to 
make at this time, by my colleague and good friend from 
California, Mr. Issa.

HON. DARRELL E. ISSA, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Issa. Thank you, Chairman, and I would ask unanimous 
consent that my entire statement be put in the record. And 
since so much has been said, properly, by my colleagues here, 
and since I really, more than anything else, want to welcome my 
former Ambassador here, and my good friend, and often we call 
each other our brothers, because we did form a bond since 2001 
that was very close, just as our Nation continues to form a 
tighter bond with an emerging democracy, and as Mr. 
Faleomavaega said so well, the only country ever to dismantle 
its nuclear capability.
    It gives us an opportunity to look further. With the summit 
coming up in 2010, certainly I want to join with my colleagues 
to support that. It's a bold move, in a place that is both 
beautiful and warm in the summer, and bitter cold in the 
winter. So I commend you for finding the right season for a 
summit, also. And with that, Mr. Chairman, I look forward to 
hearing his entire testimony and yield back.
    Mr. Hastings. Thank you very much, Mr. Issa. If you will 
give your statement to staff, then we will make sure that it's 
included in the record.
    Before proceeding further, I'd like to note the presence at 
today's hearing of our two fellow parliamentarians from another 
OSCE-Participating state, namely Macedonia. My understanding is 
that Mr. Eliodemoshi (ph) and Mr. Stankovi (ph) are visiting 
the United States under the auspices of the Department of 
State's International Visitor Leadership Program. Gentlemen, 
where are you? I think you're out there somewhere. I'd like to 
welcome you here to the hearing, in order to see the Helsinki 
Commission in action.
    I'd also like to acknowledge my good friend, the United 
States Ambassador to Kazakhstan. Ambassador Hoagland--where are 
you, Ambassador--is here with us today as well. Thank you so 
very much.
    With all of those amenities and courtesies out of the way, 
now we hear from my good friend, the Foreign Minister, 
Secretary of State, of Kazakhstan, Mr. Saudabayev. The floor is 
yours, sir.
    And let me remind you all again that channel two is in 
English on the headsets, and channel 10 is in Russian.
    Yes, sir.

H.E. KANAT SAUDABAYEV, FOREIGN MINISTER, REPUBLIC OF KAZAKHSTAN

    [Note: The English translation of the beginning of Mr. 
Saudabayev's remarks was not captured in the recording. His 
translated remarks begin in progress below.]
    Mr. Saudabayev. The fundamental human values--the cultural 
and human diversity of our reality should serve as the basis 
for this kind of work and in this regard, I'd like to emphasize 
this, to acknowledge this new spirit that has emerged in 
Washington--this aspiration to set the bridges connecting the 
East and the West.
    The preparedness of the United States to listen to the 
world, to listen to other countries' opinions, which I think 
was quite brilliantly demonstrated by my friends, a Congressman 
who spoke this morning. I think that we can feel quite 
optimistic that we are here sharing our goals, sharing this 
path and we can continue serving, expanding the mutual 
understanding and connections between different civilizations.
    Exactly in this human dimension, we would like to have the 
joint session in a conference in Copenhagen, which will also 
mark the 20th anniversary of the Copenhagen document adoption 
in 1990, one of the founding documents for the human dimensions 
in OSCE, as you probably know. So we hope that this conference 
will be devoted to the review of compliance with the founding 
principles and freedoms by the countries who are Members of the 
OSCE.
    We think that the annual review conferences on human rights 
in Warsaw is also very important events--very important efforts 
conducted by the OSCE and we will take it--the preparation for 
this event very seriously. As you know, Kazakhstan is the 
country that encompasses the representatives of 140 
nationalities and representatives of all kinds of different 
confessions (sic), which is one of the greatest 
accomplishments, I think, of the President of our country, 
Nursultan Nazarbayev.
    Contrary to many forecasts and contrary to many 
apprehensions, he succeeded in maintaining stable peace in the 
country that's as diverse and as expansive as Kazakhstan. And 
actually, we think that preservation of this multiculturalism 
is the founding principle for our development today and 
tomorrow. And I think that this can be transposed--this 
experience that we have accumulated can be attributed to our 
international experience.
    For example, we already have conducted the meeting of the 
highest representatives of three major religions of the world 
in Kazakhstan and we actually plan to incorporate the issues of 
tolerance as one of the top--religious tolerance as one of the 
top priorities of OSCE. This is why on June 29th and 30th, we 
are planning to conduct a conference on tolerance and 
nondiscrimination.
    We have already started preparing for this important event. 
It involves the active engagement of three representatives on 
tolerance. One of them is from the United States, Andrew Baker, 
the rabbi who is now the high representative of the United 
States on religious tolerance and fighting anti-Semitism.
    We do hope that the United States will contribute to a 
significant degree to the preparation of this event. We are 
very happy to see that Secretary of State Clinton is paying so 
much attention to the advancement of the issue of gender 
balance and we think it's very important direction for our 
work. And this is why we're proposing to conduct a joint 
session that will be devoted to the issues of equal 
opportunities for women's participation in political processes.
    We also attribute a great importance to fighting human 
trafficking, especially trafficking in children, which seems 
unfortunate to have acquired a transnational character. 
Unquestionably, as a chairman, Kazakhstan will pay very 
significant attention to the rule of law, religious tolerance, 
the enforcement of equal access to equal justice, equal law and 
the efficient work of the penitentiary system.
    We would like to say that we're planning to advance those 
freedoms, advance those principles in Kazakhstan. And actually, 
the 18 years of our independence is a clear testimony to the 
fact that we have been adhering to this path for all of this 
time. For example, just a few years ago, we incorporated very 
significant amendments in our legislation on elections on the 
freedom of mass media.
    We have adopted the national plan on human rights and their 
implementation for the years 2009, 2012, as well as we have the 
national plan that is scheduled for implementation through 2020 
in the area of the reinforcement of human rights and their 
protection.
    The law on equal rights and equal opportunities for women, 
protection from domestic violence and improvement of the 
forensic system work, social protections from various 
categories of citizens, various means and methods that exist 
for carrying out sentences in the criminal court system.
    The head of our state announced that he is going to start 
the implementation of the new legal reform which will be 
targeted at the humanization of our legislation. So this is why 
in the near future the parliament of our country is going to 
consider the draft of legislation that will provide for very 
stringent controls and monitoring for all of the activities in 
the area of human rights.
    So here is an example of the few goals that we have 
declared as our main principal goals in the role of the 
chairman of OSCE. Elections monitoring. In the year of our 
chairmanship, we are planning to monitor 15 elections in 
various countries of the world. And we are, of course, planning 
to pay due attention to this process.
    I'm happy to declare that our monitoring of the first 
elections round in Ukraine was very successful. They complied 
with OSCE requirements and we hope that the next round is going 
to be just as good. And we would like to call upon ODIHR, the 
inter-Parliamentary Assembly of the OSCE, to continue 
contributing efficiently and constructively to this process of 
monitoring the elections in different countries.
    Now, with respect to the second basket that has to do with 
economic reforms, I'd like to point out that we are planning to 
continue our efficient work in improving the efficiency of 
border control and the land transportation. There's quite a few 
acute issues in this regard and we are planning to tackle them 
this year.
    The other aspect is the environmental security. As you 
know, we have inherited two manmade environmental disasters. 
One is the Semipalatinsk test range and the Aral Sea. The Aral 
Sea is a problem that actually is acute for all countries in 
the region. It has been proven beyond doubt that this sea also 
has a negative impact on the European countries who currently 
do get reached by the salts originating from the Aral Sea.
    And I'd like to emphasize here that in the year of our 
chairmanship, Kazakhstan would like to intensify our activities 
that have to do with the stability in Afghanistan. As it was 
correctly pointed out by Congressman Eni Faleomavaega, we have 
been providing steady support to the United States and the 
international coalition on stabilizing the situation in 
Afghanistan.
    However, today, we are convinced that the military efforts, 
by themselves, are not sufficient enough to stabilize this 
country. Now is the time to expand the humanitarian constituent 
part of the international efforts. On our part, in the course 
of a number of years, we have been providing significant 
support in the construction of hospitals, schools, providing 
various humanitarian aid efforts.
    And in fact, in the course of the Afghani--as a consequence 
of the Afghani-Kazakh agreement, intergovernmental agreement, 
we will provide the training for 1,000 officers from 
Afghanistan. Despite the difficult economic situation in the 
world, we have found the time and we have found the means to 
allocate $50 million for the training of those officers. And we 
hope that we will be able to become major contributors to the 
efforts of the OSCE in this regard and that our efforts will go 
along with the efforts announced by the President of the United 
States, Barack Obama.
    Insofar, however, there is a drastic need to provide 
international support to the humanitarian aspects of life in 
Afghanistan, as well as the various social support programs 
that are required. This is what was discovered--this is what 
was discussed on the 27th, 28th of January in London, the 
conference that was devoted to the issue of Afghanistan and 
this is what I expressed at this conference.
    Since the issues of Afghanistan are especially acute for 
those countries that are present in the region, we intend to 
continue intensive and efficient work on reinforcement of 
borders, the national borders of various countries that are 
bordering on Afghanistan, as well as strengthening the capacity 
of the border control troops that serve on the border with 
Afghanistan as well as continue contributing to the training of 
the officers in the Border Control College as well as customs.
    Our country, as an acknowledged leader of the world in 
nonproliferation process, supports the initiatives of President 
Obama in terms of nuclear disarmament, his commitment, he 
confirmed in his State of the Union Address to Congress. As 
chairman in office of the OSCE, we highly appreciate the 
American-Russian negotiations to develop a new START treaty.
    A real contribution of the OSCE to the transnational 
threats and challenges including terrorism, religious 
extremism, drug trafficking and organized crime must be the 
conference for the prevention of terrorism in Astana. Here, we 
support the--we appreciate the support of our American 
colleagues.
    Kazakhstan will also try to make a contribution to the 
solution of so-called prolonged conflicts, three of which are 
raging in post-Soviet space. Bearing in the mind the historical 
commonality and mental closeness of Kazakhstan to all the 
parties to the conflicts and also in view of the high authority 
and trust enjoyed by President Nazarbayev, we hope to give an 
impetus to this process.
    This is what I'm planning to do in my forthcoming visit to 
Southern Caucasus, starting February 15th. At the same time, we 
believe it's important to prevent such conflicts which lead to 
tragedies and humanitarian disasters. And to this end, to use 
the potentiality of the OSCE in terms of monitoring and 
prevention of such situations.
    Mr. Chairman, as you know, the year 2010 is momentous for 
OSCE by several anniversaries. It is the 35th anniversary of 
the signing of the Helsinki Accords, the 65th anniversary of 
the end of the Second World War and the 20th anniversary of the 
Paris Charter for the New Europe and the 20th anniversary of 
the Copenhagen Document. Beside, it will be 11 years since the 
latest summit on the OSCE in Istanbul.
    Unfortunately, the first decade of the new century has not 
made our world safer or better. Thus, the 9/11 tragedy changed 
the usual notions of enemy and war and the international 
terrorism became an enemy without the address or nationality. 
The architecture of security in Europe has changed.
    In spite of the many years of international effort, 
Afghanistan continues to be the source of international 
terrorism and a major drug supplier. Not only have the 
prolonged conflicts not been extinguished, but new conflicts 
arose. Even in the most comfortable countries of Europe, they 
are facing, now, acute issues of tolerances, international and 
inter-religious tolerance.
    And it's all within the zone of responsibility of OSCE. So 
these are problems that demand consolidated attention and 
discussion by the leaders of the OSCE. That's why President 
Nazarbayev called to call a summit of the OSCE in 2010. These 
concrete recommendations for the summit have already been built 
into the Council of Foreign Ministers, a document in Athens, 
and supported by the Permanent Council in Vienna. The leaders 
of several countries among the OSCE--of OSCE not only support 
this suggestion, but also make an important contribution to the 
development of agenda.
    Kazakhstan also wants to continue the good tradition laid 
down by our predecessor, Greece, and invite the Foreign 
Ministers of OSCE to the informal meeting in Almaty this coming 
summer to exchange opinions on the pressing issues and 
hopefully, achieve a consensus on the summit agenda.
    I would like to note that as a result of a long absence of 
the United States in OSCE meetings, it's much more difficult 
today to find consensus. Today, OSCE demands proper attention 
on the part of one of the key countries that laid the 
foundation of this organization. Full-fledged, active 
participation of the United States will impart the needed 
impetus to our organization.
    I'm quite sure that the idea of the summit is in full 
accord with the noble goals and efforts of the United States to 
promote security and improving the trust and cooperation over 
the whole zone of responsibility of OSCE from Vancouver to 
Vladivostok.
    As the chairman in office of OSCE, I grasp this opportunity 
to call upon your distinguished colleagues, not only to extend 
our gratitude for your support, but also I call upon you to 
show your strategic vision, political will and leadership and 
support by the United States of the successful summit of our 
unique organization in the name of security and welfare of the 
peoples that created our organization.
    Indeed, in the 35 years of its history, the OSCE created an 
unprecedented system of collecting universal and indivisible 
security. However, as noted by President Nazarbayev, the 
positive historical resource of OSCE has its limits and today, 
we should not continue the so-called redlines or zero-sum games 
practice.
    I'm quite sure that our common task is in the light of new 
challenges and threats to make OSCE even more useful and more 
effective. Winding up, Mr. Chairman, I would like, once again, 
to thank, from the bottom of my heart, our chairman, 
distinguished Congressman Hastings, my friend and brother, Enid 
Faleomavaega and obviously, Darrell Issa.
    He reminded me of 2001, when within these same walls, under 
an entirely different atmosphere, a hearing on Kazakhstan was 
held and that was the only voice raised by a U.S. 
Representative who came out to support an emerging democracy in 
our country. So it's been only 9 years, but my country has 
changed beyond recognition.
    The United States has changed and today, we feel how 
reliable our strategic partnership is, looking forward into the 
future. Thank you very much and let me take this opportunity 
today to extend my gratitude to Secretary of State Hillary 
Clinton, which used to be an active Member of your 
distinguished Commission.
    As Chairman in Office of the OSCE, let me assure you that 
myself, personally, and Kazakhstan will always continue close 
and constructive cooperation with the Helsinki Commission, the 
Congress, the government and nongovernmental organizations of 
America with which Kazakhstan has formed a relationship of true 
strategic partnership. Thank you very much.
    Mr. Hastings. Thank you very much, Mr. Minister, for a very 
comprehensive presentation. If you don't mind, we would turn to 
a few questions. But I'd like to take the prerogative of the 
chair initially to say that while I have a long list of 
questions, and in the interests of time, I would not present 
each of them, I would like, with your permission, to place in 
writing to your good offices, as Chair-in-Office, many of the 
questions that I would seek an answer to, and with your 
permission, upon their being answered, to place them on our Web 
site, so that all can see what the questions were, and what the 
answers are to those questions. And I don't expect that to take 
place in any 2- or 3-day period, but certainly, if you can, 
within this month, answer the questions that I would submit.
    Mr. Chairman, I was particularly interested in your 
comments when you spoke about the invisible walls that are 
residue or the remains of the cold war. One of the reasons that 
I supported Kazakhstan as Chair-in-Office was to be able to 
dramatize the fact that there are countries that are moving 
forward, in a progressive manner, as is Kazakhstan, and it 
would be my hope that that will show the way, not only in the 
OSCE sphere, but indeed, the world.
    I think you rightly point out our shortcomings with 
reference to not having a formal Ambassador in Vienna. I do 
know that you do know that an ambassador-to-be has been 
nominated for this position. It would be my hope that he would 
be confirmed, and I'll use the term ``fast,'' or 
``expeditiously.'' I think it has been too long in the coming, 
and it would be my hope that the U.S. Senate will exercise its 
confirmation prerogatives most immediately with reference to 
the nominee. There are two areas that I wish to highlight, then 
I'll allow, if you wish to answer--those are two questions--and 
then turn to my colleagues.
    Mr. Minister, I think you know, that for 15 years, that I, 
and I'll use that pronoun, have participated in the 
Organization for Security and Cooperation in Europe, 
principally as a Member of the Parliamentary Assembly. During 
that period of time, I don't think there is any other Member of 
the U.S. House of Representatives, and I can think of at least 
six Members of various parliaments of the OSCE sphere, that 
have participated in as many election observations as I have.
    As you know, I am just recently back from the observation 
mission in Ukraine, which was my third election observation in 
Ukraine. While I agree with you that ODIHR and the 
Parliamentary Assembly are, indeed required to conduct 
themselves efficiently and constructively. And in some 
respects, Ukraine had some measures of success in that regard. 
I won't bore you or those in attendance with just how important 
I believe this cooperation, understanding to be.
    But I would like for you to take away from this meeting the 
fact that, here in the United States, particularly in the U.S. 
State Department, the ODIHR who do extraordinary work on the 
ground in election observation are referred to as the gold 
standard. I'm going to say to you what I said to Christian 
Strohal, who at one time was the head of ODIHR. Christian had 
been there a considerable number of years. I was 12 years in as 
an election observer. We were in Maastricht when I made the 
statement to him that he hadn't been elected to anything, and I 
had been elected, at that time, seven different times, and six 
different times. And that I knew more about elections than he 
would know if he was to start all over again as a bureaucrat.
    And I'll say to this State Department, and anybody here, 
and if I offend you, it's deliberate--not you, Mr. Minister, 
but the others--that ODIHR is not a gold standard, they are one 
of the standards that are necessary in the OSCE sphere. But 
when it comes to election observation, elected officials have 
no peers.
    And I just wish that to be clearly understood, so as how as 
we go forward, that those constructive and efficient 
undertakings of the Parliamentary Assembly are taken into 
account. Let me use yet another example. The OSCE governmental 
side took credit for and implemented, rightly, the anti-
Semitism conferences that have been held under the aegis of 
OSCE--three of them.
    The idea for those conferences came from the Parliamentary 
Assembly. They came from the Co-Chair of this Commission, Ben 
Cardin, and myself; Steny Hoyer, who now is the Majority 
Leader; Chris Smith, who was the Ranking Member of the Helsinki 
Commission and at the time, at different times, chairman of 
this same Helsinki Commission; Jerahmiel Grafstein, a Senator 
from Canada; and Gert Weisskerchen, a member of the Bundestag. 
The six of us--[inaudible]--the resolution that ultimately 
became the manifestation of the anti-Semitism conferences.
    Those ideas generated transparency in that arena, and we 
have made other suggestions along those lines, particularly 
fiscal accounting. Perhaps mine is not a question: It is, as 
you are my friend and brother, a suggestion about how we go 
about viewing the work of the various institutions of OSCE as 
they proceed in their critical missions.
    The one question that I would ask you to respond to is, 
Turkey hosted the last OSCE summit in Istanbul in 1999, and was 
prepared to hose the entire review conference that precedes a 
summit. Mr. Minister, a year is going to go by a lot more 
rapidly than most of us think. A month is gone already in the 
year 2010, and you point out the significant anniversaries that 
come about in this year. But would your government be willing 
to hold an OSCE review conference in Kazakhstan, in connection 
with the decision to convene a summit under your chair?
    And I suggest that that would be a very wise thing to do. I 
also would allow that wisely, you are proceeding to arrange for 
an informal conference. It would be my view that that should 
take place sooner than you are suggesting in an effort to give 
vent to the remaining undertakings that are going to be 
necessary to achieve a summit. You've heard the three of us 
suggest that we favor a summit. But I certainly favor the kind 
of review that the informal conference can proceed with, and 
with the participation of NGOs and others, in a more rapid-fire 
manner, to develop a substantive agenda. I hope out of that is 
a question, and if so, then I invite you to respond.
    Mr. Saudabayev. Mr. Chairman, as I have already pointed 
out, we already have started the substantive preparations for 
the summit. And after the formal agreement on the dates, we 
definitely will take into consideration proposals that were 
made here in favor of the summit and if necessary, if in 
addition to the informal council of ministers of foreign 
affairs, we should also hold the review conference. We will do 
that and we will be able to support its effective and efficient 
implementation.
    Mr. Hastings. Thank you very much, Mr. Chairman. Mr. 
Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman. I would be 
remiss if I did not also recognize the presence of our good 
Ambassador from Kazakhstan, my good friend, Ambassador Erlan 
Idrissov, who is also with us here. I do want to say, for the 
record, that in my humble judgment, I don't know of anybody 
that has spent so much of his precious time and his dedication 
and commitment to the operations and the--all aspects of how 
OSCE has taken its course, and especially with the active 
participation of those of us representing our government before 
this organization that is comprised of 56 countries, and I take 
this special tribute to you, Mr. Chairman, and also to Senator 
Cardin, and our other colleagues that you had indicated 
earlier.
    I also have a list of questions, and for the sake of time, 
I'm just going to submit it for the record and also for the 
Foreign Minister, Saudabayev, to respond. But I do have some--I 
think, to followup on your question, Mr. Chairman, that I think 
it's important, and always has been, the question is to justify 
having a summit that has been requested by the chairman. That 
not only will it require substance, but something that will be 
making, that will be important to the extent that not only does 
it have a direct bearing on the national interests of each 
country making up the OSCE, but certainly on issues that are 
now before us, that has tremendous impact on these countries 
that are Members of the OSCE.
    I noted with interest, Mr. Foreign Minister, you have 
indicated several aspects of several issues that could be part 
of the overall process of planning for the summit: issues 
related to religious freedom, elections, human trafficking, 
human rights, economic reforms, transportation, environmental--
all of this, put together, I think they are important. But one 
issue that I'd like to share with Foreign Minister Saudabayev, 
and that is: We are right at the center of an issue that has 
very, very serious and broad implications, not only for the 
recent decisions that were made by my own government, or our 
own government--and I make reference again to the crisis, the 
problems in Afghanistan.
    I think no other issue will bear more attention, Mr. 
Foreign Minister, on how this might relate to the interests 
that may be expressed by the 56-Member country, and the serious 
implications of how, what role, how important, this is to the 
Member countries that make up Central Asia. I have said over 
the years--and now, most recently, because of the crisis that 
we're faced with: the war in Afghanistan--I have always said, 
what are the serious implications will this be, for the Central 
Asian countries?
    I note with interest that when you say ``Afghanistans'' or 
``Afghans,'' you don't really mean that they are all a 
homogeneous people living in Afghanistan. You're talking 
about--and I've got a little listing here--of a country that is 
made up of 42 percent Pashtuns, 11.9 million Pashtuns; 7.9 
million Tajiks, who are from Tajikistan in Central Asia; 2.5 
million Hazaras; 2.5 million Uzbeks--and by the way, Uzbekistan 
borders Afghanistan, their population is about 28 million 
Uzbeks that live there.
    My point here, Mr. Chairman, and I want to note this: Will 
the issue of Afghanistan be considered as a primary, and a very 
substantial issue that OSCE should seriously undertake and 
consider in its deliberations, if a summit is to be held? And 
the reason I suggest this, Mr. Chairman, and I wanted to note 
with interest if Foreign Minister Saudabayev will share with us 
some insight.
    We're about to expend well over $30 to $40 billion in 
sending another 30,000 soldiers in Afghanistan. You're talking 
about another expenditure of probably $100 billion a year if 
we're going to stay there for another 18 months, as has been 
proposed by the administration. Now, while this may be just on 
a unilateral basis, where my country or our country is involved 
in this, but it does have serious implications throughout 
Central Asia, and I suspect that every Member of the OSCE 
country will be affected by what will be happening in the 
coming weeks and months in Afghanistan.
    And I wanted to ask the good minister if the question of 
Afghanistan is being seriously considered as an issue that 
should be discussed openly and actively among Members of the 
OSCE, and if there's a possibility that this issue could also 
be taken up as part of the agenda and the program on the 
summit, if there will be a summit, this year.
    Mr. Chairman?
    Mr. Hastings. Thank you very much. Mr. Minister?
    Mr. Saudabayev. It's a very, very accurate comment. I think 
you have been quite correct in pointing out the importance of, 
I think, the consultations that we have so far attested to the 
fact that the issue of Afghanistan's stabilization is going to 
be one of the primary items on the agenda of the summit.
    And it's actually the issue with which we have the most 
consensus since 43 countries of the overall number of OSCE 
Members have displayed their serious interest in the 
stabilization of the environment in Afghanistan. And I think if 
we do not consolidate our efforts in the absence of 
stabilization in Afghanistan, we cannot speak about the 
sustainable development of our region as well as the overall 
OSCE space.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I note with 
interest, also, Mr. Foreign Minister, that over the years, OSCE 
has had this little push-and-pull relationship, kind of like a 
mini-cold war effort, where we see Russia, again, playing a 
very critical role, and being critical also of some of the 
programs and the suggestions in terms of its proposal to have a 
security umbrella that is to be composed of European countries.
    And I'm just curious, Mr. Foreign Minister, in terms of 
what is Kazakhstan's role in trying to be a referee, I suppose? 
Because we see this: the crisis in Georgia, the problem of 
missile test--I mean, missile bases in the Czech Republic, or 
in Poland--all these things. And I think in view of the current 
administration's latest proposals and policies, and I've just 
wondered, from you, Mr. Minister: How do you view Russia's role 
in the OSCE in terms of how we can develop a more, a friendly 
atmosphere, so that we will have a tendency to say, let's be 
uniform?
    I like the idea of consensus-building in terms of how 
agreements or decisions are made within the OSCE, but I'm just 
curious: From our Foreign Minister, what exactly do you see the 
Central Asian countries' role toward Afghanistan, when we view 
this? And how does this imply, for the activities that we hope 
that the OSCE Members will play in that respect?
    Now, in my discussion with some of the leaders of the 
Asian, Central Asian countries, we don't need to send more 
bullets and guns to kill other Talibans who are actually 
Pashtuns. We need to provide more humanitarian assistance and 
education and health, agriculture development, so these people 
can be more self-sustaining. And I was just wondering if there 
was a feeling among Central Asian countries. What is the sense 
among Central Asian countries toward the crisis that we're 
faced with right now in Afghanistan, may I ask?
    Mr. Saudabayev. First of all, with respect to Russia, 
Russia is one of the OSCE Members and it's a very substantive--
Russia is a very substantive and weighty player in the 
international space and in this organization as well. And all 
countries who are Members of OSCE have equal rights, we know 
that, which is why the proposal that Russia made vis-a-vis the 
European Security Treaty that was advanced by President 
Medvedev, I think, is a valid proposal that deserves attention 
and consideration by the countries who are Members of the OSCE.
    Second, with respect to the situation around Afghanistan, I 
think the recent strategy announced by President Obama is 
correct. It's a good decision and as a country, we support it. 
We think that in the absence of adequate conditions that would 
make it possible for the Government of Afghanistan to take upon 
itself the responsibility for the security in the country, for 
the social and political evolvement of the country itself, we 
cannot talk about the postwar development of this country.
    And alongside the military efforts, we need to enhance what 
you have just pointed out, our common efforts in the social and 
economic initiatives of the development of this country, 
investments in the humanitarian infrastructure of this country, 
which is why it's so important to engage the capacities that 
are available in the bordering countries such as Tajikistan, 
Uzbekistan, Kazakhstan.
    Those are the countries who are strategically close. 
They're in the proximity of Afghanistan and of course, they 
have the religious and ethnic affinity with Afghanistan. 
Therefore, of course, we have experience in working with those 
countries. For example, Kazakhstan can present alongside the 
educational programs, we can also present the following 
proposals, that we can invite the international donors to use 
the agricultural opportunities that exist in Kazakhstan.
    We can provide seeds, for example, the seed bank to 
Afghanistan. We can also help with the transportation 
infrastructure, i.e., for example, can help with the 
construction of railroads and restoration of railroads. So of 
course, we're facing the schedule on the removal of troops from 
Afghanistan. But that should be done in parallel with the other 
processes of a gradual--it should be a gradual process.
    The reduction in the number of troops should be very 
gradual and it should be accompanied by the parallel process 
and I think the goal of having the 300,000-strong police and 
military force, there's going to become a very strong factor in 
bringing Afghanistan to normalcy and creating opportunities for 
its development.
    Mr. Faleomavaega. Thank you, Mr. Minister. Thank you, Mr. 
Chairman.
    Mr. Hastings. Thank you very much. Mr. Issa?
    Mr. Issa. Thank you, Mr. Chairman. Mr. Foreign Minister, I 
have a series of questions which I thought my staff was very 
wise to say, why don't you just ask to have your friend answer 
them in writing later? It seemed like an original idea before 
the other two asked for the same thing. So with your 
indulgence, I will abbreviate my questions, and with your 
kindness, perhaps you can answer them at your leisure.
    But there are a couple of items that I think bear 
discussion here today. One of them is, throughout the region, 
not just in Kazakhstan, not just in Afghanistan, there has been 
a difficult time in the democratization of producing competing 
parties, although in your country--and I've had the honor of 
visiting, and I have a former staff member who works on 
democracy in Kazakhstan--there are competing movements. They 
seldom--the seeds don't sprout, and so you don't have a two-, 
three-, four-party system in which they have representation in 
your parliament.
    I want to share with you something here today. Washington, 
DC, is exactly the same. This is a one-party town, even though 
there are people who are not Democrats. And this town has 
decided to have representation, at least one member of the 
council, who is chosen simply to represent minorities.
    And I might plant that seed, that throughout the emerging 
democracies, even though it would not usually fit in the U.S. 
democracy system, we all have to struggle to find a way to 
ensure that those who cannot get enough votes, but who 
represent other forms of diversity, find a way to actually get 
representation within parliaments, city councils, and other 
bodies. I plant that not as a question for you, but as a 
thought, because I know that your country has worked--you are 
not by any means the greatest democracy, nor are you least 
democracy (sic), but a struggling democracy trying to find the 
right way to lead your country in a post-cold war period. So 
that's not as much of a question as food for thought.
    My question, though, has to go to the summit. And I'm not 
asking you for a question that you answer yes or no, but more 
as what is your vision or your view of what can be accomplished 
at a summit. And my question is this: Since I've been only less 
than 2 years on the Commission, I've observed one thing, which 
is, our problems that we discuss most of the time are problems 
that are never solved: the problems of the Roma, the problems 
of anti-Semitism, the problems of universal rights of women, 
certainly that related to freedom of religion throughout the 
world. Those did not start during my tenure or even during our 
chairman's tenure, and they will not finish, because those are 
ones we always must improve on.
    But there seems to be in Afghanistan, as the others 
mention, there seems to be Member States, and non-Member States 
around the world who are struggling to reach the baseline, the 
lowest level of acceptance in the world. I spent a week in 
Afghanistan over our Christmas holiday, and it was the longest 
time I'd ever been in the region. And I was there long enough 
to realize that with less than 18 percent literacy among men, 
and almost zero among women, this is a country where for you to 
find those thousand officers to train, must be very hard, 
because to find people with enough education that you can help 
them become leaders is difficult.
    I flew over poppy fields for hours each day, and discovered 
that we had no eradication program because we cannot take on 
the very--these people, at this point, because there is no 
substitution. Afghanistan is somewhat unique, and I know that 
if there's a summit, it will dominate a great many of the 
forum, but what is your vision for raising the question of what 
is the base level for every nation of the world? And how do we 
rise to those base levels?
    So this may not be the only thing the summit is about, but 
my question to you really has to be, do we have a summit in 
which we talk about the progress on those areas where the whole 
world continues to move, or can your summit be about the world 
rising, the least among us, in a way that we all work together 
on? Because for me, if there's a summit, and I support a 
summit, that would be the greatest goal, is for what we call it 
often in the United States, the weakest links to be stronger, 
rather than talking about making all the links stronger. So I 
would appreciate your vision on that, as my only question.
    Mr. Saudabayev. Thank you for a very interesting vision 
of--(in Russian). I think the chief result of the summit--this 
is my personal opinion--should be development of united 
political will of the leaders of the OSCE countries to 
concentrate their efforts on the social and economic 
rehabilitation, to lay down the foundation or create 
conditions, therefore a transition to peaceful life because the 
military aspects are taken care of by NATO and there is an 
established international coalition.
    But now, to mobilize the OSCE countries in order to solve 
the socio-economic aspects, to train personnel, you have noted, 
very assuredly, that without an availability of--a cadre of 
educated people, it's very difficult to talk about adaptation 
of the people to a peaceful life, particularly considering the 
history of 30 years of incessant warfare.
    So the helpful point of the agenda should be to marshal the 
resources and the efforts and everybody understands that such a 
summit must be held and the Afghan issue is the most pressing 
issue.
    Mr. Hastings. Mr. Minister, you've been very generous of, 
with your time, and forthcoming with your answers. It's deeply 
appreciated by all of us. I'm sure that we look forward to 
seeing you in Vienna.
    We wish the Chair-in-Office a tremendous success during the 
next 11 months, and again, I would urge that as we are 
establishing the schedule, that we be mindful that a year is 
swift. But during that swift year, it is our great hope that 
there will be such a dynamic force coming from the Chair-in-
Office, and I know, as my friend and little brother, that you 
will do a good job with those in your entourage.
    If you have time, Mr. Minister, after greeting those who 
may wish to say hello to you, we've arranged--and I believe 
your staff will know--a brief, or intermittent visit, in the 
rear of the room. Our staff will point you in that direction. 
If you have the time, at the very least, do stop in and say 
hello and goodbye to us. And we'll see you later this evening, 
I hope, too, at 6:30 in the CVC. All right, with that, the 
hearing is adjourned.
    [Whereupon, at 11:26 a.m., the hearing was adjourned.]

                          A P P E N D I C E S

   PREPARED STATEMENT OF HON. BENJAMIN L. CARDIN, CHAIRMAN, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    I am pleased to welcome Kazakhstan's Foreign Minister to 
the Helsinki Commission today in his capacity as Chairman-in-
Office of the Organization for Security and Cooperation in 
Europe for 2010. At the outset, let me congratulate the 
Government of Kazakhstan for the outstanding organization of 
your chairmanship. You and your colleagues in Astana, Vienna, 
and Washington have done a superb job. Kazakhstan has the 
distinction of being the first Central Asian country to chair 
the OSCE. This is a great honor for Kazakhstan. I hope 
Kazakhstan's leadership of the organization will enrich both 
Kazakhstan and the OSCE. I especially hope that the Kazakhstani 
chairmanship will promote democratization and human rights 
observance in Central Asia, a region that has sadly lagged 
behind in the critical human dimension.
    Today's hearing is vitally important in maintaining the 
Commission's engagement with the political leadership of the 
OSCE, a tradition spanning nearly a decade. Your appearance 
here today, early in the Kazakh chairmanship, as well as your 
consultations with senior administration officials allows us to 
hear about your priorities and plans and to raise issues of 
mutual concern. We welcome this opportunity.
    The Helsinki Commission likewise has closely followed 
developments in Kazakhstan since independence, and especially 
since your government announced its interest in securing the 
OSCE chairmanship in late 2003. It is fair to say that no 
prospective chair has undergone as much scrutiny. In this 
regard, we have been mindful that President Nazarbayev 
personally signed the Helsinki Final Act in 1992 when 
Kazakhstan joined the OSCE and the specific commitments made by 
your government at Madrid.
    There are many `firsts' associated with the Kazakh 
chairmanship, points of distinction for which you can rightly 
take pride. Given the distinctive focus of the Helsinki 
Commission on democracy, human rights and the rule of law, I 
would be remiss not to note that Kazakhstan is the first 
country assessed as ``not free'' by Freedom House to assume the 
OSCE chairmanship. This reality presents unique challenges and 
opportunities for Kazakhstan, for the United States, and for 
those of us committed to advancing the principles enshrined in 
the Final Act.
    Kazakhstan's chairmanship comes at a time when the 
participating States collectively face myriad challenges from 
Afghanistan, the impasse over the CFE Treaty and prolonged 
frozen conflicts to corruption, persecution of human rights 
defenders and violations of fundamental freedoms, including 
freedom of expression and media as well as the right to freely 
profess and practice one's religion. Your president's proposal 
to convene an OSCE summit in Kazakhstan in 2010 deserves 
serious and thoughtful consideration. I look forward to 
discussing this initiative with you further as we consider 
those steps that would be necessary to make such a summit not 
only a reality, but a success.
    Mr. Minister, I look forward to our sustained engagement 
with you and your colleagues during Kazakhstan's chairmanship 
and beyond.

   PREPARED STATEMENT OF HON. DARRELL E. ISSA, COMMISSIONER, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Chairman Hastings,
    This past month, the Chairmanship of the 56 member 
Organization for Security and Cooperation in Europe (OSCE), the 
world's largest security-oriented intergovernmental 
organization, was assumed by Kazakhstan for the year of 2010. 
The responsibilities of the Chairmanship include, but are not 
limited to: Representing the Organization, managing the 
activities related to conflict prevention, crises, and post-
conflict recovery, and coordinating the duties of the OSCE 
worldwide. The selection of Kazakhstan for the Chair is 
especially significant for several important reasons.
    As an ex-Soviet republic, Kazakhstan has made great inroads 
from the transition of communist state to full-fledged 
democracy. While not yet a full-fledged democracy, Kazakhstan 
has for years been moving in the right direction. As the last 
of the Soviet republics to declare independence, which occurred 
on December 16th, 1991, Kazakhstan has made many strides 
towards becoming an open, more western-leaning democracy, yet 
they still have much work to do.
    I want to acknowledge, however, the progress that 
Kazakhstan has made, especially in relation to its neighbors. 
President Nazerbayev's government continues to push for 
initiatives instilling confidence in the rule of law and create 
the infrastructures needed to strengthen the democratic values 
in the country. While this process has not been 
straightforward, or without controversy, and understanding that 
the government has made some questionable decisions recently, 
Kazakhstan is moving in the right direction. By ensuring 
further transparency, integrity of elections, the ability of 
public access to information and media, furthering press and 
human rights, establishing the freedom of religion Kazakhstan 
will solidify its place as a leader in the region.
    By joining the OSCE, and assuming the chairmanship this 
year; Kazakhstan's leadership has proved that their desire to 
positively contribute to the region. With Chairmanship 
priorities in the present including such issues as Afghanistan 
and terrorism, human rights issues, election monitoring, and 
potential summits, Kazakhstan has a very busy year ahead.
    Thus, I would like to welcome my dear friend Foreign 
Minister and Secretary of State Kanat Saudebayev, who prior to 
his current roles, was the Kazakhstani Ambassador to the United 
States for seven years. I look forward to hearing him outline 
Kazakhstan's agenda for 2010.
    Thank you.

PREPARED STATEMENT OF H.E. KANAT SAUDABAYEV, FOREIGN MINISTER, 
                     REPUBLIC OF KAZAKHSTAN

    Distinguished Co-Chairman Cardin, Co-Chairman Hastings, 
members of the Commission, and members of Congress, today I am 
very happy to see, in this room, dignitaries, prominent 
politicians, and real patriots of America with whom I happened 
to work during my seven-year tenure as the Republic of 
Kazakhstan's Ambassador to the United States.
    I would like to express my gratitude for this opportunity 
to address this esteemed Commission, which played a key role in 
the decision of the United States to support Kazakhstan's 
chairmanship in the Organization of Security and Co-operation 
in Europe (OSCE). Therefore, I decided to deliver my first 
statement as the OSCE Chairman-in-Office here, at the Helsinki 
Commission, as I believe in your sincere interest in the 
success of Kazakhstan's OSCE Chairmanship. The goal of our 
chairmanship is to strengthen our common organization to 
provide greater security and broader cooperation in the vast 
territory from Vancouver to Vladivostok.
    In his video address to the OSCE's Permanent Council in 
Vienna on January 14, President Nazarbayev presented the 
strategy and priorities of Kazakhstan's OSCE chairmanship. 
First of all, we will strictly adhere to OSCE core principles 
and values. We will work in the interests of all OSCE member 
states. Kazakhstan views the OSCE support for Kazakhstan's 
chairmanship as explicit recognition by the international 
community of our achievements in the political, social, and 
economic development of our relatively young country as well as 
our contribution to regional and global security. At the same 
time, this decision demonstrates the desire of the OSCE to 
enhance trust and mutual understanding among countries from 
west and east of Vienna.
    Our paramount objective is to fully strengthen the OSCE, to 
be instrumental in boosting its effectiveness and ability to 
appropriately respond to current challenges and threats.
    Whether our priorities will be achieved will largely depend 
on our ability to overcome the crisis of confidence, engendered 
by divisive lines and vestiges of the Cold War, which remains. 
In this regard, we hope for the ``Corfu Process'' to continue, 
as it has brought to light the common dissatisfaction of all 
OSCE member states with current state of affairs that exists in 
the various areas of the organization's responsibility.
    We deem it imperative that the ``Corfu Process'' includes 
the humanitarian basket. Kazakhstan considers the OSCE's human 
dimension an integral and key part of its operations in 2010. 
We will firmly support the important work of all three OSCE 
institutions i.e., the Office for Democratic Institutions and 
Human Rights (ODIHR), the High Commissioner for National 
Minorities, and the Representative on Freedom of the Media.
    In discussing human rights, it is important to note that 
such rights are based on fundamental human values, on diversity 
of cultures and civilizations, which must, no doubt, be 
respected. We are grateful to our American partners because, in 
supporting the Kazakh chairmanship, they reconfirmed their 
resolute commitment to the OSCE's ideals as an organization 
meant for all of its members, including countries with 
different and often more complicated cultural and historic 
experiences. Together with Denmark and ODIHR, we intend to hold 
a conference in Copenhagen next June that will be devoted to 
the 20th anniversary of the 1990 Copenhagen Document as the 
fundamental instrument of the human dimension. The event's 
agenda will include a review of compliance with the obligation 
to observe fundamental human rights and freedoms within the 
OSCE region.
    One of the most important events of our chairmanship will 
be the successful arrangement of the Review of Human Rights 
Conference in Warsaw to which we are paying special attention.
    Given a rather positive experience of achieving inter-
ethnic and inter-faith accord in our own country, we intend to 
make the issues of tolerance and intercultural dialogue within 
the OSCE space an important priority of our chairmanship.
    Indeed, this will be the underlying theme of a high-level 
OSCE conference on tolerance and non-discrimination to be held 
in Astana June 29-30. We will work on the event's agenda and 
the OSCE's preparations for the event in close coordination 
with the three personal representatives on tolerance, including 
the esteemed Rabbi Andrew Baker and representative on combating 
anti-semitism. We expect the United States to support that 
event.
    Further promotion of gender balance is a matter of urgency. 
In this regard, we intend to hold a meeting on promoting 
women's participation in public and political life and to co-
sponsor an ODIHR program on boosting women's involvement in 
government.
    We will focus on the troubling problem of human 
trafficking, particularly that of children, which has become a 
global tragedy and an increasing transnational crime.
    Kazakhstan intends to pay special attention to such 
fundamental freedoms as the freedom of conscience, freedom of 
media, rule of law, greater independence of the judicial 
system, and better public access to justice. Given this 
occasion, I would like to assure you that Kazakhstan, a young 
democracy with an 18-year history, continues to pursue 
political modernization at home. Building a strong and 
democratic society is a conscious choice, and I am in a 
position to say that we have achieved some impressive successes 
along this difficult path.
    In 2008 and 2009, in line with OSCE recommendations, 
significant legislative reforms were achieved on the areas of 
of the media, elections, political parties, and local 
government. We have adopted and have been successfully 
implementing a 2009-2012 National Human Rights Action Plan and 
a 2010-2020 Concept as to the Policy of Law, intended to 
further liberalize the law of the Republic of Kazakhstan and 
bring it in line with international standards.
    To strengthen the national system for protecting human 
rights, Kazakhstan adopted laws to ensure equal rights and 
equal opportunities for women and men, prevent domestic 
violence, improve the judicial system and forensic operations, 
take a tougher stand on corruption, provide a social safety net 
for select individuals and refugees, and address such issues as 
further improvement of the criminal penitentiary and 
correctional systems.
    In his address to the nation on January 29, President 
Nazarbayev declared the importance of further reforms to the 
criminal justice system laws in keeping with high international 
standards. Therefore, this year the Parliament will introduce a 
bill to provide strict public and parliament control over the 
operations and accountability of each and every law enforcement 
authority.
    Thus, Kazakhstan has taken specific steps to implement 
international standards in its national legislation, in line 
with the goals and objectives we have identified in the context 
of our OSCE chairmanship.
    Considering that this year elections will occur in 15 
participating nations, the Kazakh chairmanship considers it 
important that the OSCE member states comply with their 
election monitoring obligations.
    With great satisfaction, I would like to note the 
monitoring process that took place in the first round of 
elections in Ukraine; we hope that the second round also occurs 
in accordance with OSCE commitments. In this regard, we 
highlight the work of ODIHR and the OSCE Parlimentary Assembly, 
which has been conducted in the spirit of partnership, 
impartiality, and constructiveness.
    Our priority in the economic and environmental dimension 
will be to promote good governance at border crossings and 
develop safe and efficient land transportation. We believe this 
topic is highly important as we emerge from the global 
recession.
    Environmental security is yet another crucial focus in the 
OSCE's second dimension. We deem it important to focus on the 
Aral Sea problem, a Central Asian environmental catastrophe 
that has proven to adversely affect the European states. 
Addressing the Aral region's problems could serve as a model 
for solving similar environmental problems within the OSCE's 
area of responsibility.
    Ladies and gentlemen, Afghanistan occupies a special place 
on our chairmanship's agenda. Since the beginning of the war in 
Afghanistan, Kazakhstan has provided support to U.S. and 
international coalition efforts in the country. However, we 
strongly believe that achieving the long-term objective of 
establishing peace and democracy in that country solely through 
military means would make it difficult, if not impossible. 
Therefore, it is time to significantly expand humanitarian 
efforts in Afghanistan.
    For many years, Kazakhstan has provided financial support 
to Afghanistan to build schools, a hospital, and roads and to 
provide food aid.
    As of this year, under an agreement with the Afghan 
government, Kazakhstan has been implementing a special program 
that offers the opportunity for 1,000 Afghanis to attend our 
universities and earn civilian degrees. Despite the fallout 
from the financial crisis, Astana has allocated US $50 million 
for this educational program. Kazakhstan as the Chairman-in-
Office is going to use social, economic, and humanitarian 
capabilities of the OSCE that will absolutely correspond with 
President Obama's new strategy in Afghanistan.
    It is obvious that the Afghan government should start 
solving the problems of its country. However, their efforts in 
social and economic rehabilitation and democratic development 
should be strongly supported by the international community 
and, first of all, by the member states of the OSCE. This 
understanding was demonstrated during discussions at the 
January 28 London Conference on Afghanistan, where I also 
delivered the vision of Kazakhstan.
    Kazakhstan will continue the OSCE's active endeavors to 
improve the standard of governance at the borders between the 
Central Asian countries and Afghanistan, to develop cross-
border cooperation, and strengthen the capabilities of 
Afghanistan's national border and police forces. The OSCE has 
already achieved some concrete results in this area: an OSCE 
border college has opened in Dushanbe and a customs training 
center has become operational in Kyrgyzstan. Training Afghani 
customs, police, and border personnel translates into 
significant support for the Afghan government. In addition, the 
OSCE plans to develop new projects to stabilize the situation 
in the country.
    Our country, as a recognized leader of the global 
nonproliferation process, supports President Obama's 
initiatives on nuclear disarmament, adherence to which he 
reconfirmed in his first State of the Union Address to 
Congress. As the OSCE Chairman-in-Office we appreciate the 
U.S.-Russian negotiations on a new strategic arms reduction 
treaty (START-2).
    The real OSCE contribution to the fight against 
transnational threats and challenges--including terrorism, 
religious extremism, drug trafficking, and organized crime--
will be the Conference on Preventing Terrorism in Astana.
    Kazakhstan will try, to the best of its ability, to 
contribute to the difficult process of resolving the 
``protracted conflicts,'' three of which are raging in the 
post-Soviet space. Bearing in the mind the historical 
commonality and closeness of Kazakhstan to all the parties of 
the conflict, as well as the trust and authority enjoyed by 
President Nazarbayev, we hope to give an imputus to all efforts 
of our partners involved in this challenging process. 
Therefore, I am planning to devote attention to this subject 
during my first trip to South Caucus on February 15.
    At the same time, we believe it is crucial to seek ways to 
prevent the emergence of such conflicts, which eventually lead 
to human tragedies and humanitarian catastrophes. Therefore, we 
are going to actively engage the OSCE's capacity to monitor and 
identify any possible conflicts.
    Ladies and gentlemen, 2010 represents a milestone for the 
OSCE. This year, it celebrates several anniversaries of great 
significance to the establishment of the security architecture 
in Europe. I am referring to the 35th anniversary of the 
Helsinki Final Act, the 65th anniversary of the end to the 
Second World War, the 20th anniversary of the Paris Charter for 
a New Europe, and the 20th anniversary of the Copenhagen 
Document. Furthermore, it is the 11th year since the last OSCE 
summit was held in Istanbul.
    Unfortunately, the first decade of the new century has not 
made our world safer or better. The 9/11 tragedy changed the 
traditional notion of ``enemy'' and ``war.'' International 
terrorism has become an enemy without an address or 
nationality. The architecture of the European security has 
changed. In spite of the many years of international efforts, 
Afghanistan continues to be the source of international 
terrorism and a major drug supplier. Not only have the 
protracted conflicts not been resolved but new conflicts have 
arisen. We have witnessed and been experiencing circumstances 
arising from the international financing crisis. Even the most 
comfortable countries of Europe are facing challenges in 
promoting tolerance, interethnic, and interreligious accord. 
All these problems exist in the OSCE area of responsibility--
they need collective attention and consideration by the 56 
leaders of OSCE member states.
    That is why President Nazarbayev called for an OSCE summit 
in 2010. A specific recommendation concerning the summit is 
already incorporated into documents of the Athens Ministerial 
Council and is now supported by the Permanent Council in 
Vienna. Leaders of France, Italy, Vatican, Turkey, Spain, as 
well as Russia and other CIS countries, and the current EU 
President have not only supported the summit but have begun 
working on its agenda.
    Kazakhstan also intends to continue a good tradition 
established by our predecessor, Greece, and invite the foreign 
ministers of the OSCE member states to an informal meeting in 
Almaty next summer. There, they could continue a free exchange 
of opinions on urgent problems and, ideally, achieve consensus 
as to approval of the summit's agenda and timeline.
    I would like to note that, as a result of the United 
States' long absence from high-level OSCE meetings, a certain 
imbalance has emerged within the organization. Numerous OSCE 
processes have slowed, and consensus building is becoming an 
increasingly more challenging task. The OSCE needs proper 
attention on the part of a key nation that helped lay the 
organization's foundation. The full engagement of the United 
States with the OSCE will give the organization a new impetus 
and set a new tone for talks within its ambit.
    I am absolutely certain that the idea of the Summit is in 
full accord with the noble goals and efforts of the United 
States to promote comprehensive, indivisible, and strong 
security and to strengthen trust and cooperation in the OSCE 
region--from Vancouver to Vladivostok. As the Chairman-in-
Office I grasp this opportunity to call upon you, distinguished 
colleagues, to demonstrate the strategic vision, political 
will, leadership, and support needed to make the summit of our 
unique and unparalleled organization a reality in the name of 
security and prosperity of the people who established the OSCE.
    Dear friends, during its 35-year history, the OSCE has 
created an unparalleled system of collective, comprehensive, 
and integral security. However, as President Nursultan 
Nazarbayev has noted, ``. . . the positive historical resources 
of the OSCE are limited'' and ``today, it is not permissible to 
carry on endlessly a practice that involves drawing so-called 
`red lines' and playing `zero-sum games.' '' I am quite sure 
that it is our common task to make the OSCE more effective and 
stronger in light of new challenges and threats.
    In conclusion, I would like, once again, to thank you, 
distinguished Co-chairman Hastings and all esteemed members of 
Congress in this room, as well as members and the staff of the 
U.S. Helsinki Commission for your efforts and support of 
Kazakhstan's OSCE chairmanship. I would like to offer my 
profound appreciation for the great interest in the OSCE and 
its activities as expressed by my counterpart Secretary of 
State Hillary Clinton, who was a member of your esteemed 
Commission.
    For my part, I assure you of our complete willingness to 
continue a close constructive engagement with the Helsinki 
Commission, the Congress, the administration, as well as other 
non-governmental entities of the United States with which 
Kazakhstan has established relations of a true strategic 
partnership.
    Thank you for this opportunity to present Kazakhstan's 
vision for and priorities during its OSCE chairmanship. I am 
pleased to respond to your questions and welcome your comments 
and suggestions.

                               [all]



  

                                     
                 This is an official publication of the
                       Commission on Security and
                         Cooperation in Europe.

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                This publication is intended to document
                developments and trends in participating
                States of the Organization for Security
                   and Cooperation in Europe (OSCE).

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

               All Commission publications may be freely
               reproduced, in any form, with appropriate
                   credit. The Commission encourages
                   the widest possible dissemination
                          of its publications.

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                 http://www.csce.gov     @HelsinkiComm

                   The Commission's Web site provides
                  access to the latest press releases
                  and reports, as well as hearings and
              briefings. Using the Commission's electronic
                 subscription service, readers are able
                  to receive press releases, articles,
               and other materials by topic or countries
                        of particular interest.

                        Please subscribe today.
</pre></body></html>
